App. 1
FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
SHANIZ WEST,

No. 18-35300

Plaintiff-Appellee,
v.
CITY OF CALDWELL; CITY
OF CALDWELL POLICE
DEPARTMENT; FORMER
CHIEF CHRIS ALLGOOD,

D.C. No.
1:16-cv-00359-REB
OPINION

Defendants,
and
DOUG WINFIELD, Sergeant,
in his official and individual
capacity; ALAN SEEVERS;
MATTHEW RICHARDSON,
Defendants-Appellants.
Appeal from the United States District Court
for the District of Idaho
Ronald E. Bush, Magistrate Judge, Presiding
Argued and Submitted March 7, 2019
Portland, Oregon
Filed July 25, 2019

App. 2
Before: Susan P. Graber and
Marsha S. Berzon, Circuit Judges, and
Eduardo C. Robreno,* District Judge
Opinion by Judge Graber;
Dissent by Judge Berzon
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

COUNSEL
Landon S. Brown (argued) and Bruce J. Castleton,
Naylor & Hales P.C., Boise, Idaho, for DefendantsAppellants.
Jeremiah Hudson (argued), Rebecca A. Rainey, and
Vaughn Fisher, Fisher Rainey Hudson, Boise, Idaho,
for Plaintiff-Appellee.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

OPINION
GRABER, Circuit Judge.
This appeal arises from a SWAT team’s search of
Plaintiff Shaniz West’s house to apprehend her former
boyfriend, a gang member who had outstanding felony
arrest warrants for violent crimes. Plaintiff sued for
extensive damage to her house that resulted from the
search. The district court denied qualified immunity
to Defendants Matthew Richardson, Alan Seevers, and

* Honorable Eduardo C. Robreno, United States District
Judge for the Eastern District of Pennsylvania, sitting by designation.

App. 3
Doug Winfield, who are officers with the Caldwell,
Idaho, police department. We reverse.
FACTUAL AND PROCEDURAL BACKGROUND1
On a summer afternoon in August 2014, Plaintiff ’s
grandmother called 911 to report that: Plaintiff ’s former boyfriend, Fabian Salinas, was in Plaintiff ’s house
and might be threatening her with a BB gun; Plaintiff ’s children also were in the house; and Salinas was
high on methamphetamine. The grandmother warned
the dispatcher that Plaintiff might tell the police that
Salinas was not in the house.
The police knew that Salinas was a gang member.
At the time, he had outstanding felony arrest warrants
for several violent crimes. His criminal record included
convictions for rioting, discharging a weapon, aggravated assault, and drug crimes. In addition, during a
recent high-speed car chase, Salinas had driven his vehicle straight at a Caldwell patrol car, forcing the officer to swerve off the road to avoid a collision. The
police also had information that Salinas possessed a
.32 caliber pistol.
Four officers, including Richardson, responded to
the 911 call. Richardson was familiar with Salinas’
criminal history. After arriving at Plaintiff ’s house,
Richardson called Plaintiff ’s cell phone several times,
but she did not answer. He then called Plaintiff ’s grandmother, who repeated that Salinas was in Plaintiff ’s
1

The relevant facts are undisputed.

App. 4
house. She also said that Salinas’ sister had been at
the house but had left when Salinas arrived. Richardson then called the sister, who confirmed that she had
seen Salinas in Plaintiff ’s house within the last 30
minutes, that he had a firearm that she thought was a
BB gun, and that he was high on drugs. Richardson
knocked on the front door of the house but received no
response.
While the officers were discussing how to proceed,
Sergeant Joe Hoadley noticed Plaintiff walking down
the sidewalk toward her house. Hoadley and Richardson approached Plaintiff. Richardson asked Plaintiff
where Salinas was; she responded that he “might be”
inside her house. Richardson followed up: “Might or
yes?” He told Plaintiff that Salinas had a felony arrest
warrant, so if Salinas was in the house and she did not
tell the police, she could “get in trouble” for harboring
a felon. “Is he in there?” At that point, Plaintiff told
Richardson that Salinas was inside her house, even
though she did not know if he was still there; she had
let Salinas into the house earlier in the day to retrieve
his belongings, but she left the house while he was still
there. Plaintiff felt threatened when Richardson told
her that she could get in trouble if she were harboring
Salinas, because Plaintiff ’s mother had been arrested
previously for harboring him.
After Plaintiff told Richardson that Salinas was in
the house, Richardson walked away to confer with the
other officers. They discussed whether to contact the
SWAT team, but Plaintiff did not know that the SWAT
team might become involved. Richardson returned to

App. 5
Plaintiff about 45 seconds later. He said: “Shaniz, let
me ask you this. Do we have permission to get inside
your house and apprehend him?” Plaintiff nodded affirmatively and gave Richardson the key to her front
door. Plaintiff knew that her key would not open the
door because the chain lock was engaged, but it is unclear from the record whether Richardson also knew
that. After handing over the key, Plaintiff called a
friend to pick her up, and she left in the friend’s car.
Hoadley then called the local prosecutor’s office
and reported to the on-call prosecutor that Plaintiff
consented to having officers enter her house to arrest
a person who was subject to a felony arrest warrant.
The prosecutor told Hoadley that the officers did not
need to obtain a search warrant.
Hoadley next contacted Seevers, the SWAT Commander, to request assistance in arresting a felon who
was barricaded inside a house and who might be
armed and on drugs. Seevers, in turn, notified Winfield,
the SWAT Team Leader, of the request. Seevers told
Winfield that Salinas’ family reported that he was in
Plaintiff ’s house with a firearm (described as a BB
gun) and that he was suicidal. Winfield contacted
Hoadley for more information. Hoadley told him that
Salinas had felony arrest warrants, that Salinas was a
suspect in a gun theft and that not all the stolen firearms had been recovered, that Salinas was suicidal,
and that all signs indicated that Salinas was in Plaintiff ’s house. Hoadley also told Winfield that Plaintiff
had given her consent for officers to enter her house to

App. 6
effect an arrest and that the on-call prosecutor had
confirmed that the officers did not need a warrant.
The SWAT team met at the local police station to
retrieve their tactical gear and establish a plan. Winfield, who created the plan, hoped to get Salinas to
come out of the house without requiring an entry
by members of the SWAT team. The plan had three
stages: (1) contain Plaintiff ’s house and issue oral commands for Salinas to come out; (2) if stage one failed,
introduce tear gas into the house to force Salinas out;
and (3) if stages one and two failed, enter and search
the house for Salinas after the tear gas dissipated.
Seevers reviewed and approved the plan, which conformed to commonly accepted police practices.
While the SWAT team prepared at the station, the
officers at Plaintiff ’s house continued to watch for Salinas and to update the SWAT team over the radio. One
officer reported hearing movement in the house, and
another said that he heard the deadbolt latch while he
was standing near the front door.
The SWAT team arrived at Plaintiff ’s house late
in the afternoon. They made repeated announcements
telling Salinas to come out of the house, but he did not
appear. After waiting about 20 minutes, members of
the team used 12-gauge shotguns to inject tear gas into
the house through the windows and the garage door.
After deploying the tear gas, the SWAT team continued to make regular announcements directing Salinas
to come out of the house, but still he did not appear.
After about 90 minutes the team entered the house.

App. 7
They used Plaintiff ’s key to unlock the deadbolt on the
front door, but they could not enter because of the chain
lock. They then moved to the back door, which they
opened by reaching through the hole created earlier by
shooting the tear gas through the back door’s window.
The SWAT team searched the entire house without
finding Salinas.
Plaintiff and her children could not live in the
house for two months because of the damage caused by
the search, including broken windows and tear-gassaturated possessions. The City of Caldwell paid for a
hotel for Plaintiff and her children for three weeks and
paid her $900 for her damaged personal property.
Plaintiff then filed this action, seeking damages and
alleging claims for unreasonable search, unreasonable
seizure, and conversion.
As relevant here, Defendants moved for summary
judgment after the close of discovery, seeking qualified
immunity. The district court denied Seevers and Winfield’s motion on the ground that it is “well-established
that a search or seizure may be invalid if carried
out in an unreasonable fashion.” The court denied
Richardson’s motion on the ground that, if he had not
obtained Plaintiff ’s voluntary consent, the need for a
warrant was clearly established. Defendants timely
appealed.

App. 8
DISCUSSION2
A. Principles Governing Qualified Immunity
Police officers have qualified immunity for their official conduct unless (1) they violate a federal statutory
or constitutional right and (2) that right was clearly
established at the time of the challenged conduct. District of Columbia v. Wesby, 138 S. Ct. 577, 589 (2018).
“Clearly established” means that existing law “placed
the constitutionality of the officer’s conduct ‘beyond debate.’ ” Id. (quoting Ashcroft v. al-Kidd, 563 U.S. 731,
741 (2011)). The Supreme Court has emphasized, especially in the Fourth Amendment context, that we may
not “define clearly established law at a high level of
generality.” Kisela v. Hughes, 138 S. Ct. 1148, 1152
(2018) (per curiam) (quoting City of San Francisco v.
Sheehan, 135 S. Ct. 1765, 1776 (2015)). Rather, we
must locate a controlling case that “squarely governs
the specific facts at issue,” except in the “rare obvious
case” in which a general legal principle makes the unlawfulness of the officer’s conduct clear despite a lack
of precedent addressing similar circumstances. City of
Escondido v. Emmons, 139 S. Ct. 500, 503-04 (2019)

2

We review de novo the district court’s denial of qualified
immunity, viewing the facts in the light most favorable to Plaintiff and drawing reasonable inferences in her favor. Kramer v.
Cullinan, 878 F.3d 1156, 1161-62 (9th Cir. 2018). We have jurisdiction to decide the legal questions presented when we assume
the truth of Plaintiff ’s version of the facts. Jeffers v. Gomez, 267
F.3d 895, 903 (9th Cir. 2001) (per curiam).

App. 9
(per curiam) (quoting Kisela, 138 S. Ct. at 1153, and
Wesby, 138 S. Ct. at 590).3
We have discretion to decide which prong of the
qualified immunity analysis to address first. Pearson v.
Callahan, 555 U.S. 223, 236 (2009). In our discussion
below, we will assume, without deciding, that Defendants violated Plaintiff ’s rights and will analyze only
whether those rights were clearly established as of August 2014.
B. Voluntariness of Consent
Plaintiff contends that her consent was not voluntary because Richardson told her that, if Salinas was
in the house and she denied it, she could “get in trouble” for harboring a wanted felon. Plaintiff asserts that
she felt threatened. As noted, we assume without deciding that her consent for the police to “get inside [her]
house” was not voluntary.
The remaining question is whether, in these circumstances, the lack of voluntariness was clearly established such that Richardson would have known
that Plaintiff ’s consent was not voluntary. Those circumstances included: time passed between his threat
to arrest Plaintiff for concealing Salinas’ whereabouts
3

See, e.g., Hope v. Pelzer, 536 U.S. 730, 738-41 (2002) (characterizing prison guards’ violation of the Eighth Amendment as
“obvious” where, long after an emergency situation had ended, the
guards placed a prisoner in leg irons, forced him to remove his
shirt, and handcuffed him to a hitching post in the hot sun for
seven hours with little water and no bathroom breaks).

App. 10
and his request for consent, during which Richardson
walked away from Plaintiff; Plaintiff nodded her assent when Richardson returned and asked her for “permission to get inside [her] house” to arrest Salinas;
Plaintiff handed Richardson her house key without
being asked for it; Plaintiff knew that Salinas was a
wanted felon; and Richardson did not threaten to arrest Plaintiff for withholding consent for the officers to
enter her home.
In support of her argument, Plaintiff cites Calabretta v. Floyd, 189 F.3d 808 (9th Cir. 1999); United
States v. Ocheltree, 622 F.2d 992 (9th Cir. 1980); and an
unpublished district court decision that is not precedential. See al-Kidd, 563 U.S. at 741 (holding that a
district court decision is not controlling authority in
any jurisdiction). The cited cases are clearly distinguishable. Indeed, the differences between the situation that Richardson faced and these two opinions
“leap from the page,” Kisela, 138 S. Ct. at 1154 (quoting
Sheehan, 135 S. Ct. at 1776).
In Calabretta, we denied qualified immunity to a
police officer and a social worker who entered a home
to perform a child welfare check. When the children’s
mother opened the front door, the police officer “told
her that if she did not admit them, then he would force
their way in.” 189 F.3d at 811. Thus, the mother did not
give voluntary consent to the entry. By contrast, Richardson was attempting to arrest a dangerous felon, not
to conduct a welfare check. More importantly, Richardson spoke to Plaintiff away from her house, not at the
front door; he did not threaten to force his way into the

App. 11
house against her will; and he did not threaten to arrest Plaintiff if she refused consent to having the police
enter her home.
In Ocheltree, we ordered suppression of evidence
that an agent from the Drug Enforcement Administration obtained after coercing a suspect into opening his
briefcase. The agent stopped the suspect at an airport,
and the suspect agreed to accompany the agent to his
office, where the agent asked for permission to search
the briefcase. Even though the agent lacked probable
cause, he told the suspect that he would get a search
warrant if the suspect failed to consent. We held that
the agent’s promise to obtain a search warrant clearly
conveyed that the suspect would remain in custody in
the meantime; that is, in effect the agent threatened
an arrest and detention without probable cause. 622
F.2d at 993-94. By contrast, Richardson did not threaten
to arrest Plaintiff if she declined consent. Moreover, after Plaintiff confirmed that Salinas was in the house,
Richardson walked away for nearly a minute before
returning to ask for permission to enter the house,
clearly signaling a lack of intent to detain Plaintiff.
And Plaintiff felt comfortable leaving the scene in her
friend’s car, indicating that she well understood that
she was not threatened with detention. Finally, Richardson had probable cause to believe that Salinas was
in Plaintiff ’s house.
Our research has uncovered no controlling Supreme Court or Ninth Circuit decision holding that
“an officer acting under similar circumstances as [Defendants] . . . violated the Fourth Amendment.” White

App. 12
v. Pauly, 137 S. Ct. 548, 552 (2017) (per curiam). Prior
precedent must articulate “a constitutional rule specific enough to alert these deputies in this case that
their particular conduct was unlawful.” Sharp v. County
of Orange, 871 F.3d 901, 911 (9th Cir. 2017). Given the
factors that suggested voluntary consent, we hold that
a lack of consent was not clearly established and that
a lack of consent was not so obvious that the requirement of similar precedent can be overcome. Richardson
is, therefore, entitled to qualified immunity on this
claim.
C. Scope of Consent
Plaintiff next argues that, even if she consented
voluntarily to entry into her house, Seevers and Winfield exceeded the scope of her consent by having the
SWAT team shoot tear gas into the house. As noted,
Plaintiff agreed that officers could “get inside [her]
house and apprehend” Salinas, and she knew that Salinas was a wanted felon. Other than the limitation
concerning the reason for entry—to arrest Salinas—
Plaintiff expressed no limitation concerning, for example, when officers could enter or where in her house the
officers would be allowed to look.
As with the other alleged constitutional violations,
we assume without deciding that Defendants exceeded
the scope of consent by employing tear gas canisters
for their initial entry, which is the entry that damaged
Plaintiff ’s house. The dissent goes to great lengths
to argue that Defendants violated Plaintiff ’s Fourth

App. 13
Amendment rights because no reasonable person
would have understood Plaintiff ’s consent to encompass shooting tear gas canisters into the house. But we
do not dispute that point here. And, contrary to the dissent’s characterization, we do not hold “that a ‘typical
reasonable person’ consenting to an entry to look for a
suspect could be understood by a competent police officer as consenting to damage to his or her home so extreme that [it] renders [the home] uninhabitable for
months.” Dissent at 25. Rather, we assume that Defendants exceeded the scope of consent and address
only whether clearly established law, defined at an appropriate level of specificity, “placed the constitutionality of the officer’s conduct ‘beyond debate.’ ” Wesby, 138
S. Ct. at 589 (quoting al-Kidd, 563 U.S. at 741). The dissent never comes to grips with this legal standard.
Once again, we conclude that no Supreme Court
or Ninth Circuit case clearly established, as of August
2014, that Defendants exceeded the scope of consent.
Defendants did “get inside” Plaintiff ’s house, first with
objects and later with people. Plaintiff never expressed
a limitation as to time, place within the house, or manner of entry. Defendants did not, for instance, enter
other buildings, exceed an expressed time limit, or enter for a different purpose than apprehending Salinas.
To the extent that handing over the key implied that
Plaintiff expected Defendants to enter through the
front door,4 Defendants did attempt to do that.

4

Plaintiff knew, though, that the key would not open the
front door because of the chain lock.

App. 14
The dissent argues that Florida v. Jimeno, 500
U.S. 248, 251 (1991), “clearly established that general
consent to search is not without its limitations.” Dissent at 24. But in the Fourth Amendment context, the
Supreme Court has warned us time and time again
that we may not “define clearly established law at a
high level of generality.” Kisela, 138 S. Ct. at 1152
(quoting Sheehan, 135 S. Ct. at 1776). Jimeno held that
it was “reasonable for an officer to consider a suspect’s
general consent to a search of his car to include consent
to examine a paper bag lying on the floor of the car.”
500 U.S. at 251. The Court also noted that it would be
“very likely unreasonable to think that a suspect, by
consenting to the search of his trunk, has agreed to the
breaking open of a locked briefcase within the trunk.”
Id. at 251-52. That is the phrase on which the dissent
hangs its hat. Dissent at 24. But, outside the context of
a vehicle search, Jimeno provides nothing more than a
general principle for consent; it does not articulate “a
constitutional rule specific enough to alert these deputies in this case that their particular conduct was unlawful.” Sharp, 871 F.3d at 911.
The dissent also cites United States v. Ibarra, 965
F.2d 1354, 1357-58 (5th Cir. 1992) (en banc) (per curiam), for the proposition that Defendants exceeded
the scope of Plaintiff ’s consent by causing extensive
damage to her home. In Ibarra, an equally divided
Fifth Circuit, sitting en banc, affirmed the district
court’s ruling that officers exceeded the scope of a
guest’s general consent to search a house when they
used a sledgehammer to break boards that sealed off

App. 15
the attic from the rest of the house. Id. For three reasons, Ibarra does not provide clearly established law
here. First, Ibarra is not precedential even in the Fifth
Circuit. See United States v. Yarbrough, 852 F.2d 1522,
1538 n.8 (9th Cir. 1988) (“Opinions which are affirmed
by an equally divided en banc Court of Appeals have
no precedential value.”); United States v. MendozaGonzalez, 318 F.3d 663, 667 n.5 (5th Cir. 2003) (“Decisions by an equally divided en banc court have no value
as binding precedent.”). Second, because Ibarra is an
isolated Fifth Circuit case, it cannot provide clearly established law in our circuit. See Sharp, 871 F.3d at 911
(“[T]he prior precedent must be ‘controlling’—from the
Ninth Circuit or Supreme Court—or otherwise be embraced by a ‘consensus’ of courts outside the relevant
jurisdiction.” (quoting Wilson v. Layne, 526 U.S. 603,
617 (1999))). And third, the factual differences between
Ibarra and this case “leap from the page.” Kisela, 138
S. Ct. at 1154 (quoting Sheehan, 135 S. Ct. at 1776).
Given that Defendants thought they had permission to enter Plaintiff ’s house to apprehend a dangerous, potentially armed, and suicidal felon barricaded
inside, it is not obvious, in the absence of a controlling
precedent, that Defendants exceeded the scope of
Plaintiff ’s consent by causing the tear gas canisters to
enter the house in an attempt to flush Salinas out into
the open. Seevers and Winfield are, therefore, entitled
to qualified immunity on this claim.
The cases that Plaintiff cites in support of her
scope-of-consent theory pertain instead to the reasonableness of the search. We turn, next, to that issue.

App. 16
D. Reasonableness of Search and Seizure
The pivotal question is whether Seevers and Winfield’s actions were reasonable. We assume without deciding that Defendants used excessive force by shooting
tear gas canisters through the windows of Plaintiff ’s
house as the initial means by which they “[got] inside”
the house to search for and arrest Salinas. That is the
action that caused the damage underlying Plaintiff ’s
complaint. We examine whether the unreasonableness
of Defendants’ actions was clearly established as of
August 2014.
Defendants reasonably believed that Salinas was
in the house, that he was high on meth, that he possessed what had been described as a BB gun, that he
was suicidal, and that he owned a .32 caliber pistol.
They also knew that he was a gang member with outstanding felony arrest warrants for violent crimes and
that he had aggressively tried to run down a patrol car
during a recent high-speed chase. We have found no
Supreme Court or Ninth Circuit case clearly establishing that the procedure Defendants followed, including
the use of tear gas and the resulting destruction, is unreasonable in those circumstances.
Plaintiff cites three cases in support of her argument that the unreasonableness of Defendants’ actions
was clearly established: Liston v. County of Riverside,
120 F.3d 965 (9th Cir. 1997); Mena v. City of Simi Valley, 226 F.3d 1031 (9th Cir. 2000); and an unpublished
district court decision that is not controlling authority.
The stark factual differences between the published

App. 17
cases and this case preclude a conclusion that the unreasonableness of Defendants’ actions was clearly established in August 2014.
In Liston, officers damaged property when they executed a search warrant at the wrong house; the man
for whom they were searching had sold the house and
a different family had moved in. We noted expressly
that “officers executing a search warrant occasionally
‘must damage property in order to perform their duty.’ ”
120 F.3d at 979 (quoting Dalia v. United States, 441
U.S. 238, 258 (1979)). Thus, we remanded for a determination of when the property damage occurred because, until the officers learned that they had entered
the wrong house, they reasonably could have believed
“that the way they conducted the search was lawful.”
Id. at 979.
By contrast, Defendants here entered the right
house and—because of statements from Plaintiff, her
grandmother, and Salinas’ sister—they reasonably believed that Salinas was barricaded inside. Defendants
also knew that Salinas was a violent, and likely armed,
felon. Liston, in fact, recognizes that (1) a mistaken but
reasonable belief that the object of the search is within
the searched premises supports qualified immunity
and (2) property damage can occur lawfully during a
search.
In Mena, we affirmed the denial of qualified immunity for officers who were “unnecessarily destructive” while searching a home. 226 F.3d at 1041. The
officers broke down two doors that already were

App. 18
unlocked, and the occupant of the home saw one officer
kicking the open patio door while declaring: “I like to
destroy these kind of materials, it’s cool.” Id. We noted
that destroying property during a search “does not
necessarily violate the Fourth Amendment,” but “Defendants appear to have damaged Plaintiffs’ property
in a way that was ‘not reasonably necessary to execute
the search warrant.’ ” Id. (brackets omitted) (quoting
United States v. Becker, 929 F.2d 442, 446 (9th Cir.
1991)).
Plaintiff does not claim, and the record does not
suggest, that Defendants damaged her house because
they thought that doing so was “cool.” Moreover, Mena
simply does not describe an acceptable amount of property damage that a SWAT team may inflict while
trying to flush a violent and likely armed felon (who
recently had threatened a police officer’s life) out of a
house.
Another precedent, Bravo v. City of Santa Maria,
665 F.3d 1076 (9th Cir. 2011), also bears on our analysis. There, we held that a SWAT team’s nighttime
incursion is a “far more serious occurrence than an ordinary daytime intrusion” and so requires exigent circumstances. Id. at 1085-86. But the search in this case
occurred on a summer afternoon, during daylight
hours; Defendants knew that Plaintiff was not home
and certainly was not asleep inside.
“[T]he ultimate touchstone of the Fourth Amendment is reasonableness,” whether officers search a
home with a warrant or with the occupant’s consent.

App. 19
Fernandez v. California, 571 U.S. 292, 298 (2014) (quoting Brigham City v. Stuart, 547 U.S. 398, 403 (2006)).
Given the unusual circumstances of this case, the need
for specificity of precedent in the Fourth Amendment
context, and controlling cases establishing that officers
can sometimes damage a home during a search without violating the occupant’s Fourth Amendment rights,
this is not an obvious case in which to deny qualified
immunity without any controlling precedent clearly
establishing that Defendants violated Plaintiff ’s rights.
See Sharp, 871 F.3d at 912 (explaining that “the obviousness principle has real limits when it comes to the
Fourth Amendment,” because “officers encounter suspects every day in never-before-seen ways”). Seevers
and Winfield are, therefore, entitled to qualified immunity on this claim as well.
CONCLUSION
Defendants are entitled to qualified immunity because, assuming that their actions violated Plaintiff ’s
Fourth Amendment rights, those rights were not
clearly established, at the appropriate level of specificity, in August 2014.
REVERSED.

App. 20
BERZON, Circuit Judge, dissenting in part:
In my view, Defendants Seevers and Winfield are
not entitled to qualified immunity on the scope of consent claim. I therefore dissent in part.
I
Shaniz West returned home to find her house surrounded by the members of the Caldwell Police Department (“the Department”). The Department sought
to execute a warrant for the felony arrest of her exboyfriend, Fabian Salinas. When Defendant Officer
Matthew Richardson asked West whether Salinas was
inside her home, she initially expressed uncertainty.
West explained that she had asked Salinas to leave
when he stopped by earlier to retrieve his belongings
but was unsure whether he had actually left. Only after Officer Richardson informed her that she could be
arrested for harboring a felon did West tell him that
Salinas was inside (which, it later turned out, he was
not). Officer Richardson then asked West, “Do we have
permission to get inside your house and apprehend
him?” Consenting to the search with a nod of her head,
West provided a key to her home but left before any
search took place. The Department did not contact her
further.
After receiving West’s consent to “get inside [her]
house and apprehend him,” the Department sent a request for assistance to the Special Weapons and Tactics
(“SWAT”) team. SWAT team leader Doug Winfield and
Lieutenant Alan Seevers, respectively, formulated and

App. 21
reviewed a tactical plan. The plan consisted of three
phases, all of which were ultimately executed.
First, SWAT, over a public address system, instructed Salinas to leave the house. Second, SWAT
used a 12-gauge shotgun to shoot tear gas canisters
into the home, breaking windows and extensively damaging the walls and ceiling in the process. SWAT then
waited 90 minutes for the tear gas to spread and force
Salinas outside. When Salinas did not come out and
the tear gas had dissipated, SWAT implemented the
final phase of the tactical plan, entering the residence
to look for Salinas. Before entering, SWAT attempted
to enter through the front door with the key West provided but could not gain entry, as the chain lock was
engaged. SWAT next tried the back door, reaching
through a window the tear gas canisters had broken
and unlocking the back door.1 The subsequent search
of West’s home revealed that Salinas was not inside.
The fruitless police activity—primarily the use of
tear gas before entering the house—extensively damaged West’s home. To put the extensive property injury
in context: West’s personal belongings and the home itself were saturated in tear gas; broken glass littered
the floor; and the walls and ceiling had gaping holes
from contact with the tear gas canisters. In the aftermath of the destruction, West and her children could
not live in their home for several months.
1

West asserted that the key unlocked both the front and
back door. There is no indication in the record that the SWAT
team ever tried the key on the back door.

App. 22
West filed suit against the City of Caldwell, the
Caldwell Police Department, and the individual officers involved in the search. Among other things, she alleged that Winfield and Seevers exceeded the scope of
her consent by designing and executing a tactical plan
that culminated in making her home uninhabitable.
II
“The standard for measuring the scope of a suspect’s consent under the Fourth Amendment is that of
‘objective’ reasonableness—what would the typical
reasonable person have understood by the exchange between the officer and the suspect?” Florida v. Jimeno,
500 U.S. 248, 251 (1991). Contrary to the majority’s
reading of West’s consent—which quite frankly, borders on the fantastic—no “typical reasonable person
[would] have understood . . . the exchange between . . .
[O]fficer [Richardson] and [West]” as permitting the
throwing of destructive tear gas canisters into her
house from the outside, before any officers even attempted to “get inside [the] house and apprehend [Salinas].” (emphasis added). Interpreting the exchange
between West and Officer Richardson as permitting
the SWAT attack on West’s house as performed is patently unreasonable. Any reasonable officer would
have known at the time that the search exceeded the
scope of West’s consent, for two principal reasons.
First, West’s consent quite obviously contemplated
an entry by live human beings, not the tossing of incendiary objects into the house from the outside. That

App. 23
understanding is confirmed by the framing of Officer
Richardson’s consent request. Officer Richardson asked,
“Do we have permission to get inside your house and
apprehend him,” incorporating the understanding that
“we”—the officers—would be entering the house. (emphasis added). Furthermore, in providing Officer Richardson with a key to her home when she consented to
the search, West signaled that her consent was for a
peaceful entry by actual persons, not a destructive assault on her home from the outside.
The majority adopts an entirely implausible contrary reading of West’s consent, one a “typical reasonable person [would not] have understood by the
exchange between the officer and the suspect.” Jimeno,
500 U.S. at 251. Because West “never expressed a limitation as to time, place within the house, or manner of
entry,” the majority concludes that her consent that officers could “get inside” permitted a violent initial attack on her house with toxic objects. Maj. Op. at 13. In
so concluding, the majority supposes that someone who
permits law enforcement officers to “get inside [her]
house” while handing over a key consents to the officers not entering the house but instead lobbing dangerous objects, such as tear gas canisters—or stones or
bombs, for other examples—into the house from the
outside. It further presupposes that, in providing consent to entry, a resident must preemptively forbid actions no one would guess are contemplated by the
commonsense understanding of the articulated consent. That is not the law. See Jimeno, 500 U.S. at 251.

App. 24
That no “typical reasonable person” would have
understood West’s exchange with Officer Richardson
as the majority’s far-fetched reading suggests is further confirmed by considering why the tear gas canisters were thrown into the home. SWAT deployed the
tear gas canisters to entice Salinas to leave the house
on his own volition. West’s consent obviously did not
contemplate that manner of apprehension. West permitted officers (1) “to get inside [her] house and [(2)] apprehend him,” in that order. That permission signifies
that officers were to “apprehend him” while still “inside” the residence, not that foreign objects would be
thrown into the home to force Salinas to leave the
house and that the officers would then arrest him outside.
In short, despite the majority’s attempt to distort
West’s consent, any “typical reasonable person” would
have understood the exchange as permitting a physical
entry by actual persons only, in which officers would
try to find Salinas in the house and arrest him there.
Second, even if West consented to a plan that covered attacks on her house from the outside with dangerous objects, a reasonable officer would have known
that, at some point, the destruction of property could
exceed the scope of West’s consent. In Jimeno, the Supreme Court held that general consent to search the
suspect’s vehicle, without any express limitations on
scope, permitted the officer to search the vehicle as
well as a paper bag on the vehicle’s floor. 500 U.S. at
251. In so holding, Jimeno clearly established that general consent to search is not without its limitations. As

App. 25
an example of such inherent limits, Jimeno reasoned
that “[i]t is very likely unreasonable to think that a
suspect, by consenting to the search of his trunk, has
agreed to the breaking open of a locked briefcase
within the trunk.” Id. at 251-52.
Applying Jimeno to the present case, it is clear
that extensive property destruction rendering a home
uninhabitable goes beyond the limitations inherent in
a general consent to search. Small personal property is
not afforded more Fourth Amendment protection than
residential properties. So if the “breaking open of a
locked briefcase within [a] trunk” is “very likely unreasonable” and exceeds the scope of ordinary consent, it
goes without saying that assaulting a home with tear
gas and making the residential property uninhabitable
for months is likewise unreasonable, and exceeds the
scope of consent. Id. A resident need not expressly
state, for example, that the officers could “get inside
[her] house and apprehend [Salinas],” but could not
attack it with incendiary objects that would make it
impossible to live in the house. As in the Jimeno hypothetical, that limitation is inherent in the consent, and
a reasonable officer would have so understood.
Notably, I have found no federal case that holds—
or suggests—otherwise. Although some cases have
held that there are circumstances in which a general
consent to search allows for intentional damage to personal property,2 no appellate decision, as far as I can
2

Four circuits have determined that general consent to search
does not permit intentional damage to personal property. See United

App. 26
tell, has approved massive damage to a dwelling after
a general consent to search. See also United States v.
Ibarra, 965 F.2d 1354, 1357-58 (5th Cir. 1992) (en banc)
(per curiam) (affirming by equally divided court with
seven judges determining that the officers exceeded
the scope of consent by using a sledgehammer to break
boards securing entry to the attic).
In concluding that the officers performed a search
consistent with West’s consent, the majority does
what no court has before—it holds that a “typical reasonable person” consenting to an entry to look for a
suspect could be understood by a competent police officer as consenting to damage to his or her home so
extreme that renders it uninhabitable for months.
Aside from its complete implausibility as a matter of
common experience, the majority’s holding is likely to
hamper legitimate law enforcement activity by making

States v. Garrido-Santana, 360 F.3d 565, 576 (6th Cir. 2004);
United States v. Torres, 32 F.3d 225, 231-32 (7th Cir. 1994);
United States v. Zamora-Garcia, 831 F.3d 979, 983 (8th Cir.
2016); United States v. Strickland, 902 F.2d 937, 942 (11th Cir.
1990). The Third, Tenth, and D.C. Circuits have similarly suggested that although a general consent to search a place or item
may permit the police to dismantle or temporarily modify that
property, the consent does not give the police authorization to destroy that property or otherwise “render it useless.” United States
v. Kim, 27 F.3d 947, 956-57 (3d Cir. 1994) (quoting United States
v. Springs, 936 F.2d 1330, 1334-35 (D.C. Cir. 1991)); see also
United States v. Osage, 235 F.3d 518, 521, 522 n.2 (10th Cir.
2000). The Second Circuit allows for intentional damage to personal property in the course of a general consent search. See
United States v. Mire, 51 F.3d 349, 351-52 (2d Cir. 1995).

App. 27
homeowners extremely reluctant to agree to consensual searches.
III
The majority faults this dissent for not providing
closely similar cases to guide the clearly established
law inquiry with regard to the application of Jimeno’s
“typical reasonable person” standard. Maj. Op. at 1315. But this case well illustrates that some police actions are so clearly unacceptable under the applicable
standard that it is the absence of closely similar cases
that is most telling. See Hope v. Pelzer, 536 U.S. 730,
741-46 (2002). Here, for example, the likely reason
there are no closely similar cases standing for the proposition that officers may not use a general consent to
search to take actions that render a home uninhabitable for months is that law enforcement officers well understand that, and do not rely on consent alone to
conduct home-destructive activities.
Moreover, contrary to the majority’s assumption,
the scope of consent claim in this case is not akin to the
various excessive force cases which have triggered the
Supreme Court’s repeated admonitions regarding the
need for closely similar clearly established case law
in qualified immunity cases. Maj. at 13-14. Unlike the
many cases in which officers often face difficult splitsecond decisions and so need detailed instructions if
they are to be held liable for constitutional violations,
see, e.g., Stanton v. Sims, 571 U.S. 3, 10 (2013) (per curiam), the officers here had time to inform West of the

App. 28
dangerous nature of their intended activities before
relying on her consent. The fact that they decided not
to inform her in more detail could suggest that they
anticipated that she would not agree to the search as
performed—as she probably would not have—but proceeded anyway. Given the timing and extensive planning that went into the destructive search of West’s
home, the dynamic in a case such as this one is entirely
different from that in usual excessive force cases, in
which the Court has insisted on closely analogous case
law for qualified immunity purposes.
There will be, of course, cases in which it will not
be clear to law enforcement officers whether the consent obtained reaches the activities undertaken, or in
which the preplanned, and consented to, scheme goes
awry for reasons beyond the officer’s control. In such
situations, insistence on affirmative guidance from
closely similar cases makes sense before requiring the
law enforcement defendants to pay for the plaintiff ’s
injuries.3 But here, the destructive activities occurred
at the outset of SWAT’s execution of its scheme and as
far as the tear gas itself was concerned, went exactly
as planned (although Salinas did not emerge). Where,
as here, there is simply no plausible possibility that a
“typical reasonable person” would have understood
that West agreed to the destruction, the absence of
case law approving similar actions on the grounds of

3

More accurately, the governmental entity’s insurer will
pay. See Joanna C. Schwartz, Police Indemnification, 89 N.Y.U.
L. Rev. 885 (2014).

App. 29
general consent should be a sufficient basis to deny
qualified immunity.
For the foregoing reasons, I respectfully, but emphatically, dissent.

App. 30
UNITED STATES DISTRICT COURT
DISTRICT OF IDAHO
SHANIZ WEST,
an individual,
Plaintiff,
vs.
CITY OF CALDWELL;
CITY OF CALDWELL
POLICE DEPARTMENT;
FORMER CHIEF CHRIS
ALLGOOD in his official
and individual capacity;
SERGEANT DOUG
WINFIELD in his official
and individual capacity;
LIEUTENANT ALAN
SEEVERS in his official
and individual capacity;
OFFICER MATTHEW
RICHARDSON in his
official and individual
capacity in his official and
individual capacity; and
DOES I-X,
Defendants.

Case No.
1:16-cv-00359-REB.
MEMORANDUM
DECISION AND
ORDER RE:
PLAINTIFF’S MOTION
FOR SUMMARY
JUDGMENT
(Docket No. 29)
DEFENDANTS’ CROSS
MOTION FOR
SUMMARY JUDGMENT
(Docket No. 33)
PLAINTIFF’S MOTION
IN LIMINE TO PROHIBIT BOTH THE
DISPLAY OF FABIAN
SALINAS’S PHOTOGRAPH AND ANY
MENTION OF HIS
CRIMINAL HISTORY
AT TRIAL
(Docket No. 24)
PLAINTIFF’S MOTION
TO STRIKE THREE
FACTS RELYING ON
SHERIFF RANEY’S
EXPERT WITNESS

App. 31
DISCLOSURES IN
SUPPORT OF
DEFENDANTS’ BRIEF
(Docket No. 35)
PLAINTIFF’S MOTION
TO STRIKE FROM
DEFENDANTS’ STATEMENT OF FACTS,
RESPONSE BRIEF,
AND CROSS MOTION
FOR SUMMARY JUDGMENT REFERENCES
TO INFORMATION
POLICE KNEW BUT
DID NOT SHARE WITH
SHANIZ WEST
(Docket No. 36)
(Filed Mar. 28, 2018)
Now pending before the Court are the following
motions: (1) Plaintiff ’s Motion for Summary Judgment
(Docket No. 29); (2) Defendants’ Cross Motion for Summary Judgment (Docket No. 33); (3) Plaintiff ’s Motion
in Limine to Prohibit Both the Display of Fabian Salinas’s Photograph and Any Mention of His Criminal
History at Trial (Docket No. 24); (4) Plaintiff ’s Motion
to Strike Three Facts Relying on Sheriff Raney’s Expert Witness Disclosures in Support of Defendants’
Brief (Docket No. 35); and (5) Plaintiff ’s Motion to
Strike from Defendants’ Statement of Facts, Response
Brief, and Cross Motion for Summary Judgment References to Information Police Knew but Did Not Share

App. 32
with Shaniz West (Docket No. 36). Having carefully
considered the record, participated in oral argument,
and otherwise being fully advised, the Court enters the
following Memorandum Decision and Order:
I.

GENERAL BACKGROUND

This action relates to an August 11, 2014 standoff
between Fabian Salinas and police officers from the
Caldwell Police Department at Plaintiff Shaniz West’s
residence in Nampa, Idaho. Plaintiff generally alleges
that, in attempting to apprehend Mr. Salinas, Defendants violated her Fourth Amendment rights by effectively destroying her home. The pertinent factual
backdrop is as follows:
1. At all relevant times to this action, Plaintiff
rented a house located at 10674 Gossamer Street in
Nampa, Idaho (the “Residence”); Plaintiff lived at the
Residence with her two adolescent children (while also
pregnant with her third child). See Am. Compl., ¶ 15
(Docket No. 20).
2. During the night and early morning hours of
August 10-11, 2014, Plaintiff heard knocking on the
doors and windows of the Residence. See Defs.’ SOF,
No. 7 (Docket No. 33, Att. 2). On the morning of August
11, 2014, Plaintiff called the police to report the incident and Officer Troyer with the Caldwell Police Department responded. See id. Plaintiff told Officer
Troyer that the knocking may have been her exboyfriend, Mr. Salinas. See id. Likewise, Mr. Salinas’s
sister, Crystal Vasquez (who was also at the Residence

App. 33
during this time), suggested that the knocking might
have been Mr. Salinas. See id. Officer Troyer told Plaintiff that Mr. Salinas had warrants for his arrest and
that the police would patrol the area looking for him.
See id.
3. Later that day, Mr. Salinas came to the Residence to retrieve some of his belongings. See Am.
Compl., ¶ 16 (Docket No. 20). Mr. Salinas was a wanted
felon. See id. at ¶ 17; see also Defs.’ SOF, Nos. 1-5
(Docket No. 33, Att. 2) (discussing Mr. Salinas’s gang
affiliation and criminal history, including, but not limited to, rioting, discharging a weapon, aggravated assault, and drug charges).
4. When Mr. Salinas arrived at the Residence,
Plaintiff was preparing to leave to register her son for
elementary school. See Am. Compl., ¶ 18 (Docket No.
20). Plaintiff instructed Mr. Salinas to gather his belongings (which were in boxes in the garage) and vacate the Residence before she returned. See id. Before
leaving, Plaintiff told Mr. Salinas to lock the chain lock
on the front door and leave the back door unlocked. See
Defs.’ SOF, No. 8 (Docket No. 33, Att. 2); see also Pl.’s
Stmt. of Add’l Facts, No. 1 (Docket No. 34, Att. 1). Plaintiff then left the Residence with her two children and
began walking toward her son’s school. See Am.
Compl., ¶ 18 (Docket No. 20).
5. Police officers then responded to a 911 call
from Plaintiff ’s grandmother, Deborah Garcia, requesting assistance at the Residence. See Defs.’ SOF,
No. 9 (Docket No. 33, Att. 2) (after leaving Residence,

App. 34
Ms. Vasquez informed Ms. Garcia that Mr. Salinas was
at Residence, prompting Ms. Garcia to call 911 and report that Mr. Salinas was there, with recorded dispatch
call log indicating that Ms. Garcia “provided police
with the following information: (1) Salinas was at
West’s home and was possibly threatening her with a
BB gun; (2) there were children at the house; (3) Salinas was inside the home even if West informed officers that he was not at the house; (4) Salinas was in
possession of a BB gun; and (5) Salinas was on meth.”)
(internal citations omitted).
6. The Caldwell Police Department responded
and, after arriving at the Residence, Detective Matthew Richardson attempted to call Plaintiff ’s cell
phone multiple times, but did not receive an answer.
See id. at No. 11. He then called Ms. Garcia to gather
more information, learning that (1) Ms. Garcia believed Mr. Salinas was inside the Residence; (2) he
likely parked his car somewhere else; (3) he had a
loaded BB gun; (4) he was “starting shit with Shaniz”;
(5) he probably broke Plaintiff ’s phone; and (6) Ms.
Vasquez was at the Residence but she left once Mr. Salinas arrived. See id. Detective Richardson then tried
to call Ms. Vasquez but the call went to her voicemail.
See id. He then knocked on the Residence’s door and
called out for Mr. Salinas and Plaintiff, but did not receive an answer. See id.
7. Detective Richardson then called a different
number for Ms. Vasquez; this time, she answered the
phone. See id. at No. 12. Ms. Vasquez told Detective
Richardson that (1) she saw Mr. Salinas inside the

App. 35
Residence 20-30 minutes prior; (2) he was in possession of a firearm that she believed was a BB gun; (3) he
was waiving the BB gun around; (4) he was on drugs;
(5) somebody had dropped him off at the Residence and
left; and (5) Plaintiff was not answering her phone. See
id. After this call, the police officers on the scene discussed whether they should enter the Residence. See
id. Officer Hemmert stated that he heard a noise in the
garage that sounded like somebody opening a crawl
space. See id. Around this time, Sergeant Hoadley saw
Plaintiff walking down the sidewalk toward the Residence. See id.
8. Earlier, as she was walking to register he son
at the school, Plaintiff received a phone call from police
dispatch. See id. at No. 13. She answered the phone,
but it immediately died. See id. Plaintiff did not know
why dispatch was calling her, but she believed the call
was either to follow up from her morning call to police,
or because police officers who were patrolling the area,
saw Mr. Salinas enter the Residence. See id. When she
returned at approximately 2:20 p.m., Plaintiff found
numerous Caldwell Police Department officers outside
the Residence, assuming that their presence had something to do with Mr. Salinas. See id., see also Am.
Compl., ¶ 19 (Docket No. 20); Pl.’s Stmt. of Add’l Facts,
Nos. 4-5 (Docket No. 34, Att. 1) (“When West returned,
she found her home ‘surrounded with officers.’ Five police officers, to be exact: Officers Joey Hoadley (“Hoadley”), Arguello, Hemmert, Schreiber, and Detective
Matt Richardson (“Richardson”).”) (internal citations
omitted). Even so, Plaintiff did not understand why

App. 36
police officers were in the backyard of the Residence.
See Pl.’s Stmt. of Add’l Facts, No. 6 (Docket No. 34, Att.
1); see also id. at No. 7 (“One officer was guarding the
front door and garage door, Officer Hemmert was in the
backyard, having gained entry through an open gate,
Hoadley was on the east side of the home, watching
both the front and back and two other officers generally roving around the home.”).
9. Upon seeing Plaintiff walking toward the Residence, Sergeant Hoadley and Detective Richardson
approached and later spoke with her. See Defs.’ SOF,
No. 14 (Docket No. 33, Att. 2); see also Pl.’s Stmt. of
Add’l Facts, No. 9 (Docket No. 34, Att. 1). Plaintiff explained that Mr. Salinas had been there earlier to retrieve his belongings, that she told him to leave, and
that she was unsure whether he was still inside the
Residence. See Am. Compl., ¶¶ 20-24 (Docket No. 20);
see also Pl.’s SOF, Nos. 4-5 (Docket No. 29, Att. 2); see
also Pl.’s Stmt. of Add’l Facts, No. 10 (Docket No. 34,
Att. 1). Believing that Plaintiff may not be telling him
the truth about Mr. Salinas’s location, Detective Richardson informed her that if Mr. Salinas was inside her
home and she did not tell officers that fact, she could
get in trouble for harboring a felon. See Defs.’ SOF, No.
14 (Docket No. 33, Att. 2); see also Pl.’s SOF, No. 6
(Docket No. 6); Pl.’s Stmt. of Add’l Facts, No. 13-16
(Docket No. 34, Att. 1). Feeling threatened, Plaintiff
then informed Detective Richardson that Mr. Salinas
was inside the Residence, that he had a firearm that
she believed was a BB gun, and that he had locked the
chain lock on the front door. See Pl.’s SOF, No. 7 (Docket

App. 37
No. 29, Att. 2); see also Pl.’s Stmt. of Add’l Facts, No. 1718 (Docket No. 34, Att. 1); Defs.’ SOF, No. 14 (Docket
No. 33, Att. 2); but see Defs.’ Stmt. of Disp. Facts, No. 2
(Docket no. 33, Att. 2) (disputing that Plaintiff felt
threatened “solely because of Richardson’s questions,”
commenting: “Thus, when Richardson informed her of
the law of harboring a felon, several other factors (such
as her own actions of letting Salinas into her home
without informing police, when she knew he had arrest
warrants) weighed into any feelings she may have
had.”). A portion of the audio recording of the conversation reflects the following:
Richardson:

Is he in there?

Plaintiff: [Inaudible]
Richardson:
front door?

Okay. Do you have a key to the

Plaintiff: He has the top lock locked.
Richardson:
inside. . . .

21-201. Shaniz is advising he’s

Richardson:
in there?

So how certain are you that he’s

Plaintiff: [Inaudible] . . . and I have a pit
bull. She’s very friendly.
Richardson: Okay. I heard the dog. So you
think for certain he’s in there?
Plaintiff: [Inaudible]
Richardson: Okay. She’s 100 percent positive he’s in there.
Defs.’ Stmt. of Disp. Facts, No. 2 (Docket No. 33, Att. 2).

App. 38
10. After additional questioning – specifically,
Detective Richardson asking: “Shaniz, let me ask you
this: Do we have permission to get inside your house
and apprehend him?” – Plaintiff ultimately gave Detective Richardson a key to the Residence and gave
him consent to use the key to enter the Residence and
arrest Mr. Salinas. See Am. Compl., ¶ 24 (Docket No.
20); see also Pl.’s SOF, Nos. 8-9 (Docket No. 29, Att. 2);
Defs.’ SOF, No. 17 (Docket No. 33, Att. 2); Pl.’s Stmt. of
Add’l Facts, No. 19 (Docket No. 34, Att. 1).1 Though
originally instructed to stay close by, Plaintiff was later
allowed to leave, and actually left the premises, providing no additional consent beyond that identified above.
See Am. Compl., ¶ 25 (Docket No. 20); see also Pl.’s SOF,
Nos. 10-12 (Docket No. 29, Att. 2); Defs.’ SOF, No. 18
(Docket No. 33, Att. 2) (“Richardson wanted West to
stay nearby so ‘she could revoke consent at any time.’ ”)
(internal citations omitted); Pl.’s Stmt. of Add’l Facts,
Nos. 34-35 (Docket No. 34, Att. 1).
11. Sergeant Hoadley then called the Canyon
County Prosecuting Attorney’s Office and spoke with
the on-call prosecutor. See Defs.’ SOF, No. 19 (Docket
1

It is unclear whether the key that Plaintiff provided to Detective Richardson only unlocked the front door of the Residence,
or both the front and back door of the Residence. Compare Pl.’s
SOF, No. 9 (Docket No. 29, Att. 2) (“West expresses consent and,
responding to a specific request, gives Officer Richardson the key
that unlocks both the front and back doors to her home.”) (emphasis added), with Defs.’ SOF, No. 17 (Docket No. 33, Att. 2) (“West
further understood that her front door was locked by a chain, and
that the key she provided to the officers would not unlock the
chain lock on her front door.”).

App. 39
No. 33, Att. 2). Sergeant Hoadley informed the prosecutor of the “facts” and informed the prosecutor that
officers were entering the Residence to arrest a person
with a felony arrest warrant rather than conducting a
search for drugs or illegal items. See id. The prosecutor
informed Sergeant Hoadley that a search warrant was
not needed if consent was obtained. See id.
12. Sergeant Hoadley then contacted SWAT
Commander Alan Seevers and requested SWAT’s assistance. See id. at No. 20; see also Pl.’s Stmt. of Add’l
Facts, No. 21 (Docket No. 21 (Docket No. 34, Att. 1)
(“Hoadley initially considered making entry into the
home using the keys[2] provided by Ms. West; determined it was too dangerous, and then left the keys in
the door and elected, instead, to call SWAT.”).
13. According to Plaintiff, “Caldwell Police [did]
not inform [her] they [were] contacting SWAT or that
any “tactical plan” involving the potential destruction
of the Residence was under consideration or could possibly be employed. See Pl.’s SOF, No. 14 (Docket No. 29,
Att. 2); see also Pl.’s Stmt. of Add’l Facts, No. 22, 24-26,
30-34 (Docket No. 34, Att. 1) (“Hoadley did not advise
Ms. West that he was going to use a methodology other
than the keys to enter West’s home. . . . Richardson
did not tell West that they were contacting SWAT. He
2

It is unclear whether Plaintiff provided Detective Richardson a single key or multiple keys to the Residence. This distinction is immaterial for the purposes of this Memorandum Decision
and Order, except insofar as informing the Caldwell Police Department’s and/or SWAT’s ability to access the Residence through
either the front or back door.

App. 40
is unsure whether anyone else did. Hoadley does not
recall any discussion with West about calling SWAT to
the scene. Ms. West does not remember any of the officers commenting that they were going to call
SWAT. . . . Seevers did not speak with anyone that
evening regarding West’s concerns[3] about her house
being destroyed and whether she’d be able to return
home with her children. No one had any discussions
with West about the fact that gas canisters would be
shot into her home, through windows, and doors. West
did not give CPD permission to deploy a canister of
tear gas through her back door. West did not give CPD
permission to deploy tear gas through any other windows.”) (internal citations omitted).
14. At approximately 3:00 p.m., Commander
Seevers notified SWAT Team Leader Doug Winfield
that SWAT was being activated “to respond to a barricaded subject inside a residence.” Defs.’ SOF, No. 21
(Docket No. 33, Att. 2). Thereafter, members of the
SWAT Team met at the Caldwell Police Department,
put their tactical gear on, created a tactical plan, and
were briefed on the tactical plan’s details. See id. The
tactical plan (developed by Team Leader Winfield) was
designed to extract Mr. Salinas from the Residence
without requiring SWAT members to go inside. See id.
The first step was to contain the Residence and call out
3

It is unclear whether Plaintiff is implying here that she previously relayed concerns about her house being damaged as a result of any efforts to apprehend Mr. Salinas. If she is attempting
to relay that she, in fact, made such concerns known, she fails to
direct the Court’s attention to evidence in the record substantiating as much.

App. 41
Mr. Salinas. See id. If Mr. Salinas did not come out, the
second step was to introduce tear gas into the Residence to try and force him out. See id. If the tear gas
did not remove Mr. Salinas from the Residence, the
third step was to conduct a “limited breach of the
home,” with the front door as the primary point of entry, and the back door as the secondary point of entry
in the event the front door was barricaded. See id; see
also Pl.’s SOF, No. 15 (Docket No. 29, Att. 2) (initially
stating that “SWAT gave no consideration to the fact
that West had given officers the key to her home,” but
going on to acknowledge nonetheless that “[u]sing the
key to enter the home and apprehend Salinas is later
described as a ‘possibility’ but a ‘last resort.’ ”) (internal
citations omitted); Pl.’s Stmt. of Add’l Facts, No. 28-29
(Docket No. 34, Att. 1); but see Defs.’ Stmt. of Disp.
Facts, No. 3 (Docket No. 33, Att. 2) (“If the officers
needed to breach the home, the third step of the tactical plan required police officers to enter the home
through the front door using the key. In executing the
plan, police officers used the key to unlock the front
door, but the door was locked with a chain.”) (internal
citations omitted). Commander Seevers approved the
tactical plan and the SWAT Team “conducted dry runs
at the police station to practice the plan.” Defs.’ SOF,
No. 21 (Docket No. 33, Att. 2).
15. The SWAT Team (consisting of 18 officers) arrived at the Residence at approximately 5:23 p.m.,
parking an armored vehicle in front of the Residence.
See id. at No. 25; see also Am. Compl., ¶ 28 (Docket No.
20). Plaintiff was not there at this time. See Pl.’s Stmt.

App. 42
of Add’l Facts, No. 36 (Docket No. 34, Att. 1). The SWAT
Team made PA announcements requesting Salinas to
come out of the Residence. See Defs. SOF, No. 25
(Docket No. 33, Att. 2). Mr. Salinas did not come out.
See id.
16. At 5:42 p.m., the SWAT Team deployed tear
gas into the Residence, using a 12-gauge shotgun to
shoot tear gas canisters through windows and, in one
instance, the garage door since the garage had no
windows to shoot through. See id.; see also Pl.’s SOF,
Nos. 17-18 (Docket No. 29, Att. 2). The SWAT Team
waited approximately one-and-one-half hours for the
tear gas to spread throughout the Residence, continuing to call out Mr. Salinas in the meantime. See id.
Again, Mr. Salinas did not come out. See Defs.’ SOF, No.
25 (Docket No. 33, Att. 2).4
17. At 7:12 p.m., the SWAT Team attempted to
enter the Residence, using the key to unlock the front
door and the deadbolt, however the front door was
chained shut. See id. The entry team then moved to the
secondary entry point (the back door) – the glass in the
back door was already removed from deploying the
tear gas, so the entry team was able to make entry by
reaching an arm through the broken glass and unlocking the back door. See id.; see also Pl.’s SOF, No. 20
(Docket No. 29, Att. 2). After entering the Residence,
4

Plaintiff states that the SWAT Team fired a “second round
of tear gas” into the Residence, but this is not confirmed by Defendants’ briefing. See SOF, No. 19 (Docket No. 29, Att. 2). Any
uncertainty in this respect is immaterial for the purposes of this
Memorandum Decision and Order.

App. 43
the entry team “held” and called out for Mr. Salinas,
but received no response. Defs.’ SOF, No. 25 (Docket
No. 33, Att. 2). The entry team continued to move into
the Residence, hold, and then call out for Mr. Salinas.
See id.
18. Eventually, the entry team searched the entire Residence but Salinas was not located; indeed, he
had apparently left the Residence earlier that day. See
id.
19. When Plaintiff was allowed to return and reenter the Residence, she found it destroyed – according
to Plaintiff, her and her children’s personal belongings
were saturated with tear gas, debris from the walls
and ceilings littered the home, and broken window
glass was everywhere. See Am. Compl., ¶¶ 30-31
(Docket No. 20); see also id. at ¶ 29 (“During the course
of the standoff, Caldwell Police shot canisters of tear
gas into the home, riddling the walls and ceilings with
holes, broke numerous windows, and crashed through
ceilings.”); Pl.’s SOF, No. 21 (Docket No. 29, Att. 2) (“The
SWAT Team shoots tear gas into every living space in
the home, coating the home and its contents – food,
bedding, furniture, clothing appliances, electronics, etc.
– with broken glass and a golden sticky residue that
causes tearing, burning and discomfort upon contact.”)
(internal citations omitted); Pl.’s Stmt. of Add’l Facts,
Nos. 43-46 (Docket No. 34, Att. 1) (describing Chief of
Police, Chris Allgood’s visit to Residence following
standoff and his acknowledgment of damage to same).

App. 44
20. Two months later, Plaintiff and her children
were able to re-occupy the Residence. See Am. Compl.,
¶ 32 (Docket No. 20); see also Pl.’s SOF, No. 22 (Docket
No. 29, Att. 2). The City of Caldwell put Plaintiff and
her children in a hotel for three weeks and paid Plaintiff $900.00 for damage to her personal property
(Plaintiff did not own the Residence). See Defs.’ SOF, p.
12, n.2 (Docket No. 33, Att. 2).
21. Through this action, Plaintiff brings three
claims against Defendants the City of Caldwell and the
Caldwell Police Department (collectively the “Caldwell
City Defendants”), as well as Chris Allgood (the Chief
of the Caldwell Police Department on August 11, 2014),
Doug Winfield (the Caldwell Police SWAT Team
Leader on August 11, 2014), Alan Seevers (the SWAT
Team Commander on August 11, 2014), Officer Matthew Richardson (a responding officer/detective at the
Residence on August 11, 2014), and unnamed officers
from the Caldwell Police Department involved in the
August 11, 2014 stand-off: (1) Unreasonable Search
(against all Defendants); (2) Unreasonable Seizure
(against all Defendants); and (3) Conversion (against
only the non-Caldwell City Defendants). See id. at
¶¶ 6-14, 33-57.
22. On April 10, 2017, Plaintiff moved for summary judgment. See Pl.’s MSJ (Docket No. 29). Defendants opposed Plaintiff ’s summary judgment efforts on
May 1, 2017, while also affirmatively moving for summary judgment on their own. See Opp. to Pl.’s MSJ &
Cross MSJ (Docket No. 33). These Cross Motions for
Summary Judgment, alongside three related motions

App. 45
filed by Plaintiff (Docket Nos. 24, 35-36), are now the
subject of this Memorandum Decision and Order.
II.

DISCUSSION

A. Cross Motions for Summary Judgment
(Docket Nos. 29 & 33)
1. Summary Judgment Standard
Federal Rule of Civil Procedure 56 provides, in
pertinent part, that the “court shall grant summary
judgment if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a). “Only disputes over facts that might affect the
outcome of the suit under the governing law will
properly preclude the entry of summary judgment.”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986). For summary judgment purposes, an issue
must be both “material” and “genuine.” An issue is “material” if it affects the outcome of the litigation; an issue is “genuine” if it must be established by “sufficient
evidence supporting the claimed factual dispute . . . to
require a jury or judge to resolve the parties’ differing
versions of the truth at trial.” Hahn v. Sargent, 523
F.3d 461, 464 (1st Cir. 1975) (quoting First Nat. Bank
of Ariz. v. Cities Serv. Co., 391 U.S. 253, 289 (1968)); see
also British Motor. Car Distrib. v. San Francisco Auto.
Indus. Welfare Fund, 883 F.2d 371, 374 (9th Cir. 1989).
“Where the record taken as a whole could not lead a
rational trier of fact to find for the non-moving party,

App. 46
there is no genuine issue for trial.” Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587 (1986).
When parties submit cross motions for summary
judgment, courts independently search the record for
factual disputes. See Fair Hous. Council of Riverside
Cnty., Inc. v. Riverside Two, 249 F.3d 1132, 1136 (9th
Cir. 2001). The filing of cross motions for summary
judgment “where both parties essentially assert that
there are no material factual disputes” does not vitiate
a court’s responsibility to determine whether disputes
as to material facts are present. See id.
In considering a motion for summary judgment,
courts do not make findings of fact or determine the
credibility of witnesses. See Anderson, 477 U.S. at 255.
Rather, it must draw all inferences and view all evidence in the light most favorable to the nonmoving
party. See Matsushita, 475 U.S. at 587-88; Whitman v.
Mineta, 541 F.3d 929, 931 (9th Cir. 2008).
2. Plaintiff ’s Motion for Summary Judgment
(Docket No. 29)
The Fourth Amendment guarantees “[t]he right of
the people to be secure in their persons, houses, papers,
and effects, against unreasonable searches and seizures.” U.S. Const. amend. IV.5 As a general matter, a
5

Under a Fourth Amendment analysis, a “search” occurs
when the government physically occupies private property for the
purpose of obtaining information. See U.S. v. Jones, 565 U.S. 40405 (2012) (“It is important to be clear about what occurred in this
case: The Government physically occupied private property for

App. 47
warrant is necessary for an involuntary search to be
presumptively reasonable under the Fourth Amendment, but it is also well-established that a search is
presumptively reasonable if a citizen voluntarily consents to the search. See Vernonia School Dist. 47J v.
Acton, 515 U.S. 646, 653 (1995); Florida v. Jimeno, 500
U.S. 248, 250-51 (1991). Where consent has been given,
disputes regarding the constitutionality of a search often focus on the scope of that consent.
To discern the scope, courts apply a standard of
“objective reasonableness”: “what would the typical
reasonable person have understood by the exchange
between the officer and the suspect?” Jimeno, 500 U.S.
at 251. Thus, even where there has been general consent to search, the extent of an officer’s search within
an area “is not limitless” and always depends on the
objective reasonableness of searching the particular
item involved. See, e.g., id. at 251-52 (holding that consent to search car included consent to open and search
paper bag hidden beneath seat, but noting that “[i]t is
very likely unreasonable to think that a suspect, by
consenting to the search of his trunk, has agreed to the
the purpose of obtaining information. We have no doubt that such
a physical intrusion would have been considered a ‘search’ within
the meaning of the Fourth Amendment when it was adopted.”).
Relatedly, a “seizure” of property occurs when “ ‘there is some
meaningful interference with an individual’s possessory interest
in that property.’ ” Soldal v. Cook Cnty., Ill., 506 U.S. 56, 61 (1992)
(quoting United States v. Jacobsen, 466 U.S. 109, 113 (1984)). Neither party disputes the existence of a search and seizure in this
instance and, hence, the Fourth Amendment’s related application.

App. 48
breaking open of a locked briefcase within the trunk”).
Accordingly, courts have held that, while a consent to
search a space includes consent to search unlocked
containers within that space, the consent does not extend to damaging property found within. Compare, e.g.,
United States v. Strickland, 902 F.2d 937, 942 (11th Cir.
1990) (holding that consent to search vehicle did not
include consent to slash spare tire and look inside),
with United States v. Jackson, 381 F.3d 984, 988-89
(10th Cir. 2004) (holding that consent to search bag included consent to search baby powder container where
no damage was inflicted to container itself ).
It is against this general backdrop that Plaintiff
moves for summary judgment, arguing in no uncertain
terms that, “as a matter of law, police officers violate
the Fourth Amendment rights of an innocent third
party who consents to the search of her home when officers conducting the search make the home unlivable
by shooting canisters of tear gas through the windows,
the garage door, and into the walls and ceilings, saturating the home and its contents with noxious chemicals.” Mem. in Supp. of Pl.’s MSJ, p. 2 (Docket No. 29,
Att. 1); see also generally id. at pp. 3-9 (citing Strickland, 902 F.2d at 942; United States v. Ibarra, 965 F.2d
1354, 1358 (5th Cir. 1992); United States v. Osage, 235
F.3d 518, 521 (10th Cir. 2000); State v. Garcia, 986 P.2d
491, 494 (N.M. Ct. App. 1999); U.S. v. Navas, 640
F. Supp. 2d 256, 267 (S.D.N.Y. 2009)).6 Essentially,
6

For the purpose of Plaintiff ’s Motion for Summary Judgment, Plaintiff assumes the position that, in speaking with Detective Richardson, the consent to search her home was validly

App. 49
Plaintiff argues that, by effectively destroying the Residence, Defendants exceeded the scope of her general
consent to allow police officers to enter the Residence
to arrest Mr. Salinas, because “[n]o reasonable person impliedly consents to the destruction of her
home and its contents.” Reply in Supp. of MSJ, p. 4
(Docket No. 34) (emphasis in original); see also id. at p.
2 (“Because no reasonable person believes that cooperating with the police impliedly means that the police
can destroy her home and its contents, this Court can
and should hold, as a matter of law, that the Defendants’ intentional destruction of Ms. West’s home and
its contents exceeded the scope of Ms. West’s consent
and was, therefore, unreasonable.”). Plaintiff ’s argument – while logical in the abstract – misses the point.
When a party consents to a search, that consent
grants permission to perform a search without a warrant, while establishing the physical footprint – or
scope – for that search. See Jimeno, 500 U.S. at 251
(“The scope of a search is generally defined by its expressed object.”) (citing United States v. Ross, 456 U.S.
798 (1982)). However, it goes too far to say (as Plaintiff
attempts to do here) that a consent also dictates how
that search is to be performed (independent of whatever limitations might exist by way of what is/is not
actually to be searched). Simply put, a consent to a
obtained. See Mem. in Supp. of Pl.’s MSJ, p. 2, n.1 (Docket No. 29,
Att. 1). However, in opposing Defendants’ Cross Motion for Summary Judgment, Plaintiff argues that issues of material fact surround the question of whether that consent was truly voluntary.
See Opp. to Defs.’ Cross MSJ, p. 3, n.1 & pp. 8-10 (Docket No. 34).

App. 50
search speaks to the “what” is to be searched; it does
not speak to the “how” a search is to take place. See
United States v. Rubio, 727 F.2d 786, 796 (9th Cir.
1983) (scope of search refers to physical bounds of area
to be searched, not manner of search or tactics used).
It is true that case law exists which blurs this nuanced point and, thus, could be read to support Plaintiff ’s summary judgment efforts. See e.g., United States
v. Martinez, 949 F.2d 1117, 1119 (11th Cir. 1992)
(“[G]eneral permission to search does not include permission to inflict intentional damage to the places or
things to be searched.”); see also Mem. in Supp. of Pl.’s
MSJ, pp. 3-5 (Docket No. 29, Att. 1) (Plaintiff citing
Strickland, Ibarra, Osage, Garcia, and Navas). However, such cases address the permitted scope of a challenged search in the context of the consent given – that
is, what could legally be searched when considering the
consent given? In answering that question, cases take
into account whether the things searched were damaged, destroyed, or otherwise rendered useless. See
Strickland, 902 F.2d 937 (slashing spare tire in automobile); Ibarra, 965 F.2d 1354 (using sledge hammer
to knock out secured boards of closet ceiling/attic floor
of residence); Osage, 235 F.3d 518 (opening sealed can
inside suitcase with multi-tool); Garcia, 986 P.2d 491
(drilling hole in welded shut compartment of vehicle);
Navas, 640 F. Supp. 2d 256 (drilling, peeling, and ripping apart trailer’s roof inside warehouse). In other
words, in determining what a consenter actually consented to have searched, cases tend to focus on
whether what was searched was damaged, and if so,

App. 51
generally concluding that, because a reasonable consenter would not have consented to have their property
destroyed, they necessarily did not consent to have
that damaged property searched in the first instance.
But that is not this situation. Here, there is no dispute about what Plaintiff consented to be searched –
the Residence. See Reply in Supp. of Pl.’s MSJ, p. 3
(Docket No. 34) (“Ms. West allowed the officers to
search her home. She gave them the keys to do so. She
did not restrict them from searching in the attic, in the
closets, behind the couches, under the bed. While she
may have been afraid of the threats that she would go
to jail if Salinas was in the home and she did not tell
them, she had nothing to hide.”). There is also no allegation that either the police officers or the SWAT Team
present at the Residence on August 11, 2014 searched
anything other than the consented-to Residence.
Stated differently, plaintiff does not take issue with
what was searched/seized (like the plaintiffs in the
cases she cites), but rather how the search was performed. Therefore, the fact that Plaintiff ’s property
was destroyed at the Residence during the search does
not mean ipso facto that the search violated the Fourth
Amendment on a “scope of consent” theory. To hold otherwise, and adopt Plaintiff ’s argument that any damage incurred during a consent search somehow
dissolves the underlying consent and renders the
now-warrantless search a per se Fourth Amendment
violation, would create a categorical rule that has no
precedential support. The facts of this case cannot be

App. 52
shoehorned into the circumstances at play in the cases
Plaintiff cites – they do not neatly apply.
But Plaintiff ’s claims are not altogether hollowed
out by the above-referenced analysis. While the atissue search is not per se unreasonable owing to her
consent, a Fourth Amendment violation still exists if
the search itself is unreasonable. See Hagar v. Rodbell,
2012 WL 827068, *3 (D. Ariz. 2012) (“An otherwise lawful search and seizure can violate the Fourth Amendment if it is executed in an unreasonable manner.”)
(citing Jacobsen, 466 U.S. 109, 124 (1984)); see also
Franklin v. Foxworth, 31 F.3d 873, 875 (9th Cir. 1994)
(“The Fourth Amendment proscribes only ‘unreasonable’ searches and seizures. However, the reasonableness of a search or a seizure depends ‘not only on when
it is made, but also on how it is carried out.’ In other
words, even when supported by probable cause, a
search or seizure may be invalid if carried out in an
unreasonable fashion. . . . Whether an otherwise valid
search or seizure was carried out in an unreasonable
manner is determined under an objective test, on the
basis of the facts and circumstances confronting the officers.”) (quoting Tennessee v. Garner, 471 U.S. 1, 7-8
(1985)).7
7

In Franklin, police officers executed a valid search warrant
at a residence where a suspected gang member engaging in drug
activity might be present at the home of his mother and the plaintiff. See Franklin, 31 F.3d at 874. The plaintiff suffered from advanced multiple sclerosis, rendering him bedridden, unable to
feed himself or sit up without assistance, and unable to control
his bowels; as a result, he wore only a t-shirt in bed. See id. After
entering the plaintiff ’s bedroom with guns drawn and searching

App. 53
To determine whether a search is reasonable
within the meaning of the Fourth Amendment, courts
examine the search based on the “totality of the circumstances.” Samson v. California, 547 U.S. 843, 848
(2006). “Whether a search is reasonable is determined
by assessing, on the one hand, the degree to which it
intrudes upon an individual’s privacy and, on the other,
the degree to which it is needed for the promotion of
legitimate governmental interests.” Id.; see also Hagar,
2012 WL 827068 at *3 (“ ‘To assess the reasonableness
of th[e] conduct, [a court] must balance the nature and
quality of the intrusion on the individual’s Fourth
Amendment interests against the importance of the
governmental interests alleged to justify the intrusion.’ ”) (quoting Jacobsen, 466 U.S. at 125 (internal
quotation marks omitted)).

the room, officers handcuffed his hands behind his back, carried
him to the living room, and placed him on a couch with his genitals exposed. See id. at 875. After complaining that the handcuffs
were causing him pain and that he was cold and tired from sitting
upright, the officers re-handcuffed his hands in front of his body
and gave him a blanket. See id. The plaintiff was then forced to
sit on the couch for over two hours until the search of the house
was complete. See id. The Ninth Circuit held that, notwithstanding a valid search warrant, the detention was unreasonable. Id.
at 876-78 (“It is clear, in light of the district court’s findings of
fact, that the officers executing the search warrant at the CurryFranklin home acted unreasonably. They executed the warrant in
an unreasonable manner, first by removing a gravely ill and seminaked man from his sickbed without providing any clothing or
covering, and then by forcing him to remain sitting handcuffed in
his living room for two hours rather than returning him to his bed
within a reasonable time after the search of his room was completed.”) (emphasis added).

App. 54
In Hagar, a warrant was issued to search the
plaintiff ’s residence. See Hagar, 2012 WL 827068 at *1.
Because the residence was believed to contain dangerous guns, the Scottsdale Police Department SWAT
Team was tasked with serving the search warrant. See
id. While approaching the door, the SWAT Team dismantled at least one security camera and used a ram
to breach the door and enter the residence. See id.
While the SWAT Team was securing the residence, several light/sound diversionary devices (“flash bangs”)
were used including one device that was deployed inside of the plaintiff ’s residence. See id. After the home
was secured, the SWAT Team left, while other personnel executed the search. See id. The interior of the
home, the garage, and the attic were searched. See id.
The plaintiff ’s vehicle was impounded and a warrant
was issued to search the vehicle. See id. After a criminal conviction, the plaintiff filed a civil suit against the
defendants, alleging a Fourth Amendment violation,
arising from an unreasonable search and seizure of his
residence. See id. at *1 & 3. Specifically, the plaintiff
alleged that five security cameras were ruined, the
front door and the door frame were damaged, a two foot
square portion of the living room carpet was burned,
ceilings in multiple rooms were cracked, and his pet
dogs were terrorized during the search of his residence.
See id. at *3. In denying the defendants’ motion for
summary judgment, the United States District Court
for the District of Arizona reasoned:

App. 55
Plaintiff has presented evidence that supports his allegations of damage to his residence during the December 17 search. See,
e.g., San Jose Charter of Hells Angels Motorcycle Club v. City of San Jose, 402 F.3d 962 (9th
Cir. 2005) (upholding the district court’s denial of summary judgment when damage to
the plaintiff ’s property included, inter alia,
cutting off mailbox, breaking refrigerator
door, and removal of a concrete slab);
Youngbey v. District of Columbia, 766
F. Supp. 2d 197, 220 (D.D.C. 2011) (holding
that the use of flash bang grenades in a residence of a homicide suspect who might have a
gun did not warrant dismissal at the summary judgment stage). It is not clear that the
alleged damage rises to the level of a constitutional violation because officers executing a
search warrant occasionally “must damage
property in order to perform their duty.” Dalia
v. United States, 441 U.S. 238, 258 (1979).
Whether the damage alleged by Plaintiff is
unreasonable, however, is a question of fact
best left for the jury to decide with the benefit
of the full record. See Chew v. Gates, 27 F.3d
1432, 1443 (9th Cir. 1994) (reasonableness under the Fourth Amendment is ordinarily a fact
question for the jury). Thus, the Court denies
Defendants’ motion for summary judgment
with respect to this Fourth Amendment violation.
Id.
Similar to Hagar, issues of fact populate the issue
of whether the August 11, 2014 search and/or seizure

App. 56
at the Residence was reasonable, as executed. Defendants make an impressive effort at arguing that the
manner in which the search was conducted was reasonable and not unnecessarily destructive. See Mem.
in Supp. of Cross MSJ, pp. 22-27 (Docket No. 33, Att.
1). Even so, the fact remains that, following the
search/seizure, the Residence was rendered uninhabitable. Whether the actions contributing to this reality
were objectively reasonable in light of the circumstances confronting the involved officers that day is a
disputed question of fact, incapable of resolution as a
matter of law at this procedural stage of the litigation.8
For these reasons, Plaintiff ’s Motion for Summary
Judgment is denied.
3. Defendants’ Cross Motion for Summary Judgment (Docket No. 33)
Defendants also move for summary judgment, arguing that (1) Plaintiff failed to allege a proper constitutional violation; (2) the individual Defendants are
entitled to qualified immunity; and (3) Plaintiff failed
8

As part of the briefing on the parties’ Cross Motions for
Summary Judgment, Plaintiff contends that [t]he reasonableness
of the tactical plan is not at issue in this lawsuit” and that, as
such, its execution was not “unnecessarily destructive.” Reply in
Supp. of Pl.’s MSJ, pp. 11-12 (Docket No. 34). At first blush, this
acknowledgment would seem to doom Plaintiff ’s claims in light of
the Court’s consideration of her Motion for Summary Judgment
here. This tension is slackened, however, when understanding
that Plaintiff ’s argument that the police exceeded the scope of her
cooperation – while perhaps misplaced in the context of her arguments as a matter of law – nonetheless challenges the reasonableness of their contemporaneous search.

App. 57
to allege a proper Monell claim against the City of
Caldwell. See Mem. in Supp. of Cross MSJ, p. 14
(Docket No. 33, Att. 1).9 Each argument is considered
below.
a. Constitutional Violation
Defendants argue that Plaintiff ’s Fourth Amendment
claims must fail because she has failed to allege a
proper constitutional violation – in particular, (1)
Plaintiff voluntarily consented to the search of the Residence or, alternatively, the search was legally permissible based on the emergency aid doctrine; (2) the
manner of the search was reasonable based on the
facts and circumstances presented to the offices; and
(3) the damage to the Residence was not unnecessarily
destructive. See id. Questions abound regarding these
considerations, preventing the entry of summary judgment on these points in Defendants’ favor.
i.

Plaintiff ’s Consent

When relying upon the consent exception, the Government bears the burden of proving that it had consent and that the consent was freely and voluntarily
9

The Court agrees with Defendant that the Caldwell Police
Department and the individual defendants in their official capacity are not proper parties to § 1983 actions and should be dismissed. See Mem. in Supp. of Defs.’ Cross MSJ, p. 14, n.4 (Docket
No. 33, Att. 1) (citing Vance v. County of Santa Clara, 928
F. Supp. 993, 995-96 (N.D. Cal. 1996); Muth v. Anderson, 2012
WL 2525574, *4, n.4 (D. Idaho 2012)). Defendants’ Cross Motion
for Summary Judgment is therefore granted in these respects.

App. 58
given. See United States v. Patayan Soriano, 361 F.3d
494, 501 (9th Cir. 2003). Voluntary consent cannot be
“the result of duress or coercion, express of implied.”
Schneckloth v. Bustamonte, 412 U.S. 218, 248 (1973).
Whether consent to a search was voluntary or was the
product of duress or coercion is a question of fact to be
determined from the totality of the circumstances. See
id. at 248-49; see also United States v. Al-Azzawy, 784
F.2d 890, 895 (9th Cir. 1985) (“Voluntariness is a question of fact to be determined from all the surrounding
circumstances”).
Here, one conclusion could be that police officers
effectively seized the Residence when Plaintiff returned from registering her son at school; the Residence was surrounded by five uniformed officers who
had established a perimeter; Detective Richardson
stopped Plaintiff on the street and engaged her in a
conversation about Mr. Salinas and his whereabouts;
Plaintiff was originally equivocal about whether Mr.
Salinas was in the Residence; and Detective Richardson indicated to Plaintiff that she could get in trouble
for harboring a felon. See supra. Under these circumstances, coupled with what Detective Richardson
did/did not say to Plaintiff by way of what a search of
the Residence might entail, it cannot be said as a matter of law that Plaintiff ’s consent to have the Residence
searched was wholly voluntary and not coerced. Thus,
there is a question whether Plaintiff, in fact, consented
to have the Residence searched.

App. 59
ii. Emergency Aid Exception
Even if consent was not voluntary, Defendants
contend that the search was constitutionally sound under the emergency aid exception to the warrant requirement of the Fourth Amendment. See Mem. in
Supp. of Defs.’ Cross MSJ, p. 20 (Docket No. 33, Att. 1).
The exception requires that: (1) law enforcement must
have reasonable grounds to believe that there is an
emergency at hand and an immediate need for their
assistance for the protection of life or property; (2) the
search must not be primarily motivated by intent to
arrest and seize evidence; and (3) there must be some
reasonable basis, approximating probable cause, to associate the emergency with the area or place to be
searched. See Campbell v. Sarrazolla, 2006 WL
2850481, *6 (D. Idaho 2006) (citing United States v.
Stafford, 416 F.3d 1068, 1073-74 (9th Cir. 2005)); see
also United States v. Shook, 2013 WL 2354085, *2 (D.
Idaho 2013) (emergency aid exception applies when
“officers ‘have an objectively reasonable basis for concluding that there is an immediate need to protect others or themselves from serious harm.’ ”) (quoting Sims
v. Stanton, 706 F.3d 954, 960 (9th Cir. 2013)). The exception stems from police officers’ community caretaking function, and courts consider whether or not the
emergency aid exception applies based on the totality
of the circumstances. See Stafford, 416 F.3d at 1074;
see also United States v. Bradley, 321 F.3d 1212, 1214
(9th Cir. 2003). The emergency aid exception is “ ‘narrow’ and [its] boundaries are ‘rigorously guarded’ to
prevent any expansion that would unduly interfere

App. 60
with the sanctity of the home.” Hopkins v. Bonvicino,
573 F.3d 752, 763 (9th Cir. 2009) (quoting United States
v. Stafford, 416 F.3d 1068, 1073 (9th Cir. 2005)).
Here, Defendants aver that “the officers had an objectively reasonable basis for believing that there was
a need to protect individuals in the home.” Defendants
say that Mr. Salinas had a firearm in his possession
and that he was suicidal. Mem. in Supp. of Defs.’ Cross
MSJ, p. 21 (Docket No. 33, Att. 1) (relatedly arguing
that, in this light, “the scope and manner of the search
was reasonable”). However, it is not clear that Defendants’ alleged effort to “protect individuals” (including
Salinas) squares with the execution of the SWAT
Team’s tactical plan generally, or with shooting multiple tear gas canisters into the Residence through windows, doors, and walls specifically – in other words,
Defendants’ actions are more consistent with forcefully
apprehending Mr. Salinas rather than protecting others or, even, himself. Such factual discrepancies cannot
be resolved as a matter of law. See, e.g., Bonivert v. City
of Clarkston, 2018 WL 1045602, *9 (9th Cir. 2018)
(“The facts matter, and here, there are at least triable
issues of fact as to whether ‘violence was imminent,’
and whether warrantless entry was justified under the
emergency aid exception.”) (quoting Ryburn v. Huff,
565 U.S. 469, 477 (2012)).
iii. Reasonableness of Search
Whether the Defendants’ search of the Residence
was reasonable (and, relatedly, whether the damage to

App. 61
the Residence was not unnecessarily destructive) has
already been addressed in the context of Plaintiff ’s
Motion for Summary Judgment. Again, the constellation of facts informing either of these questions is for
the fact-finder to resolve. See supra (citing Hagar, 2012
WL 827068 at *3 (“Whether the damage alleged by
Plaintiff is unreasonable . . . is a question of fact best
left for the jury to decide with the benefit of the full
record.”)). With all this in mind, whether Plaintiff has
alleged a proper constitutional violation in the first instance to support her underlying Fourth Amendment
claims remains unanswered. Defendants’ Cross Motion for Summary Judgment is therefore denied in this
respect.
b. Qualified Immunity
Qualified immunity shields government officials
performing discretionary functions from civil liability
if their actions were objectively reasonable in light of
clearly established law at the time they acted. See
Brosseau v. Haugen, 543 U.S. 194, 198 (2004). The Supreme Court has laid out a two-pronged inquiry for determining whether a public official enjoys qualified
immunity: (1) the trial court examines the facts alleged
in the light most favorable to the plaintiff and determines whether the officer’s alleged conduct violated a
constitutional right, and (2) the court decides whether
that right was clearly established at the time of the alleged violation. See Saucier v. Katz, 533 U.S. 194, 201
(2001). The court may choose which of the two prongs
to address first. See Pearson v. Callahan, 555 U.S. 223,

App. 62
236 (2009). “The relevant, dispositive inquiry in determining whether a right is clearly established is
whether it would be clear to a reasonable officer that
his conduct was unlawful in the situation he confronted.” Saucier, 553 U.S. at 202; see also Anderson v.
Creighton, 483 U.S. 635, 640 (1987) (“The contours of
the right must be sufficiently clear that a reasonable
official would understand” that his conduct violates
that right). On the other hand, if an official’s alleged
conduct violated a clearly established right of which a
reasonable officer would have known, he is not entitled
to qualified immunity. See id. Applying this standard,
Defendants argue that the Defendant officers are entitled to qualified immunity. See Mem. in Supp. of Defs.’
Cross MSJ, pp. 27-32 (Docket No. 33, Att. 1).
i.

Detective Richardson

As to Detective Richardson, Defendants argue,
first, that Plaintiff cannot establish a constitutional
claim against him because he obtained a voluntary
consent, and, second, the right was not clearly established in any event. See id. at p. 29. However, this argument fails because the voluntariness of Plaintiff ’s
consent involves disputed issues of fact, such that a
constitutional deprivation could have occurred. See supra. And, if true, the legal contours of that alleged deprivation is so clearly established that a reasonable
officer in the same situation would be aware of the consequences of a warrantless search absent a recognized
exception (in this case, voluntary consent). The Cross

App. 63
Motion for Summary Judgment is therefore denied in
this respect.
ii. Swat Team Commander Seevers
and SWAT Team Leader Winfield
As to SWAT Team Commander Seevers and SWAT
Team Leader Winfield, Defendants argue that they
committed no constitutional violation because the tactical plan they developed and carried out was reasonable and that, even if not, any constitutional right was
not clearly established. See Mem. in Supp. of Defs.’
Cross MSJ, pp. 30-31 (Docket No. 33, Att. 1). The involvement of these individual is multifaceted, and difficult to parse in a qualified immunity setting. On the
one hand, they received information that prompted the
tactical plan’s generation in the first place, including,
importantly, the fact that Plaintiff had apparently consented to the search and that no search warrant was
needed. See supra. In this setting, any question that
otherwise might call into question the validity of Plaintiff ’s consent does not reach to these individual Defendants – indeed, they would not have been on notice
that anything was amiss leading up to their involvement with the subsequent tactical plan. Hence, any
constitutional violation was not so clearly established
that qualified immunity protections would not apply
to them specifically. Defendants’ Cross Motion for

App. 64
Summary Judgment is therefore granted in this limited respect.10
However, on the other hand, where the reasonableness of the search itself is at issue (see supra), qualified immunity would not apply. It is well-established
that a search or seizure may be invalid if carried out
in an unreasonable fashion. See id. (citing Franklin, 31
F.3d at 876); see also Davis v. United States, 854 F.3d
594, 601 (9th Cir. 2017) (holding officers are not entitled to qualified immunity as matter of law where genuine issues of material fact exist regarding whether
seizure was reasonable); see also, e.g., McCloskey v.
Courtnier, 2012 WL 646219, *3 (N.D. Cal. 2012)
(“[B]ecause the facts relevant to the issue of qualified
immunity are inextricably intertwined with the disputed facts relevant to the issue of excessive force, defendants are not entitled to summary adjudication on
the issue of qualified immunity.”). Defendants’ Cross
Motion for Summary Judgment is therefore denied in
this respect.
iii. Chief Allgood
Defendants contend that Chief Allgood’s involvement “was limited to arriving at the scene after police officers started executing the tactical plan and
10

To be clear, the Court has not located any case law (and
Plaintiff has not pointed to any) obligating these Defendants under the circumstances present here to either separately secure
Plaintiff ’s consent to enter the Residence via the tactical plan or
question the fact of Plaintiff ’s alleged consent as relayed by others before developing and carrying out the tactical plan.

App. 65
assisting with securing the home after it was cleared,”
and that he “made no decisions with regard to the
search of the home.” Mem. in Supp. of Defs.’ Cross MSJ,
p. 32 (Docket No. 33, Att. 1). Therefore, because his was
not involved in the search of the Residence, Defendants
argue that Plaintiff cannot establish a constitutional
violation against him and/or he is entitled to qualified
immunity. See id. Plaintiff concedes this point, and
agrees to dismiss her Unreasonable Search claim
(First Claim for Relief ) against him. See Opp. to Defs.’
Cross MSJ, p. 14 (Docket No. 34). Defendants’ Cross
Motion for Summary Judgment is granted in this respect.
Even so, Plaintiff contends that qualified immunity is not available to Chief Allgood concerning her Unreasonable Seizure claim (Second Claim for Relief ),
arguing that (1) the Residence was destroyed and,
thus, unconstitutionally seized; and (2) that Chief
Allgood, as “the final policy maker with respect to remediating that issue,” may have unreasonably interfered with her possessory interest in the Residence and
its contents in the two months it took to make the Residence habitable again. See id. at pp. 14-16. This is not
enough. If Plaintiff intends to raise a constitutional
claim against Chief Allgood insofar as he allowed the
City of Caldwell’s insurance provider to work with the
Residence’s owner and the owner’s insurance provider
to complete the repairs to the Residence, she fails to
then identify how his actions violated a constitutional
right in the first instance, or how that right was clearly
established at the time of any such violation. The Cross

App. 66
Motion for Summary Judgment is also granted in this
respect.
c. Monell Claims
Plaintiff asserts that Defendant City of Caldwell
is liable for the alleged Fourth Amendment violations
– Unreasonable Search (First Claim for Relief ) and
Unreasonable Seizure (Second Claim for Relief ). Generally, a governmental entity “may not be sued under
§ 1983 for an injury inflicted solely by its employees or
agents.” Monell v. Dep’t of Soc. Servs. of City of New
York, 436 U.S. 658, 694 (1978). To succeed on a claim
against a governmental entity under § 1983, a plaintiff
must allege “(1) that [the plaintiff ] possessed a constitutional right of which he was deprived; (2) that the
municipality had a policy; (3) that this policy amounts
to deliberate indifference to the plaintiff ’s constitutional right; and (4) that the policy is the moving force
behind the constitutional violation.” Doughterty v. City
of Covina, 654 F.3d 892, 900 (9th Cir. 2011). Defendants argue the Plaintiff is unable to establish any of
the requisite elements of a Monell claim against the
City of Caldwell because (1) the search of the Residence did not violate a constitutional right, and, regardless, (2) Plaintiff has not identified any custom or
policy that was deliberately indifferent to her Fourth
Amendment rights. See Mem. in Supp. of Defs.’ Cross
MSJ, pp. 32-34 (Docket No. 33, Att. 1).
To begin, owing to the issues of fact surrounding
the existence of a constitutional violation (see supra),

App. 67
Plaintiff ’s Monell claims against the City of Caldwell
will not be dismissed as a matter of law on this discrete
basis. Therefore, Defendants’ additional arguments
speaking to the City of Caldwell’s policies and procedures vis à vis Plaintiff ’s Monell claims are scrutinized
here. To this end, Plaintiff argues that, (1) as to her
Unreasonable Seizure claim (Second Claim for Relief ),
the City of Caldwell “failed to adopt a policy and/or
train personnel on how to address and remediate destruction of personal property, thereby rendering such
destruction an unreasonable seizure”; and (2) as to her
Unreasonable Search claim (First Claim for Relief ),
the City of Caldwell’s policies are inadequate and its
final decision/policy maker, SWAT Team Commander
Seevers, “ratified the conduct of the ‘search’ based on
an invalidly-obtained consent.” Opp. to Defs.’ Cross
MSJ, pp. 17-18 (Docket No. 34). Plaintiff ’s arguments
are taken in turn and, for the reasons that follow, are
not meritorious.
First, following the search/seizure, the City of
Caldwell and/or the Caldwell Police Department secured the Residence from theft; informed its insurance
carrier of the situation; the insurance carrier worked
with the Residence’s owner, the owner’s insurance carrier, and Disaster Kleenup to repair the Residence; and
Plaintiff was reimbursed for her damaged property.
See Reply in Supp. of Cross MSJ, p. 10 (Docket no. 38).
That Plaintiff may have been dissatisfied with the time
it took to make repairs or compensate her for her destroyed property, but any unhappiness she may have
about the time involved – at least on this record – does

App. 68
not mean that the procedures undertaken in those respects amounted to a custom or policy that was deliberately indifferent to her Fourth Amendment rights.
Perhaps there is a claim for some sort of relief on such
facts, but whatever it might be, it is not a Fourth
Amendment claim against the City of Caldwell under
Monell. The Cross Motion for Summary Judgment is
granted in this respect and Plaintiff ’s Unreasonable
Seizure claim (Second Claim for Relief ) against the
City is dismissed.
Second, to simply state – as Plaintiff does – that
the City of Caldwell’s policies are inadequate is not
enough. In such a vacuum, it is impossible to examine
whether, as applied, the City was either deliberately
indifferent to Plaintiff ’s constitutional rights, or the
moving force behind the alleged constitutional violation. And, to argue – as Plaintiff does – that SWAT
Team Commander Seevers somehow ratified the
search’s particulars by developing the tactical plan despite Plaintiff ’s alleged coerced consent, ignores the
fact that he was not aware of the circumstances surrounding Plaintiff ’s consent. From his perspective, she
did consent. See supra (discussing applicability of qualified immunity to SWAT Team Commander Seevers’s
conduct). Moreover, aside from developing the tactical
plan, there is no evidence that SWAT Team Commander Seevers makes final policy on behalf of the
City. Defendants’ Cross Motion for Summary Judgment is also granted in this respect and Plaintiff ’s
Unreasonable Search claim (First Claim for Relief )
against the City of Caldwell is dismissed.

App. 69
B. Plaintiff ’s Miscellaneous Motions (Docket
Nos. 24, 35 & 36)
1. Plaintiff ’s Motion in Limine to Prohibit Both
the Display of Fabian Salinas’s Photograph
and Any Mention of His Criminal History at
Trial (Docket No. 24)
Plaintiff requests that Defendants be prevented
from (1) discussing in front of the jury the criminal history of Mr. Salinas, as well as (2) publishing to the jury
any photographs of Mr. Salinas. See generally Mem. in
Supp. of Mot. in Limine (Docket No. 24, Att. 1). To date,
Defendants have not submitted a substantive response
to the Motion, arguing that “the scope of a potential
trail and the specific issues to be presented at trial
have not yet been determined.” Opp. to Mot. in Limine,
p. 2 (Docket No. 28). Per Defendants, “[w]ithout having
this knowledge, the relevancy of such evidence for trial
purposes cannot be currently ascertained.” Id.
The Court agrees with Defendants. Plaintiff ’s Motion in Limine is denied, without prejudice to renew
following the issuance of an order setting trial and,
therein, a briefing schedule for motions in limine is included. Without now deciding the issue, the Court is
generally inclined to consider Mr. Salinas’s criminal
history relevant in the context of understanding the
reasonableness of Defendants’ conduct with respect to
searching the Residence; at the same time, the Court
is struggling to understand the appropriate relevance
of the photographs, if any. To the extent the Motion is
renewed, the parties’ briefing should address these
particular points.

App. 70
2. Plaintiff ’s (1) Motion to Strike Three Facts
Relying on Sheriff Raney’s Expert Witness
Disclosures in Support of Defendants’ Brief
(Docket No. 35), and (2) Motion to Strike from
Defendants’ Statement of Facts, Response
Brief, and Cross Motion for Summary Judgment References to Information Police Knew
but Did Not Share with Shaniz West (Docket
No. 36)
Both Motions attack Defendants’ characterization
of certain “facts” and arguments in the context of the
underlying Cross Motions for Summary Judgment. For
example, in the first Motion to Strike, Plaintiff moves
to strike from Defendants’ Statement of Facts, three
“facts” that were extrapolated from the expert report
of Sheriff Gary Raney, including: (1) “Police officers did
not use any coercive techniques in obtaining West’s
consent”; (2) “The tactical plan developed by Doug Winfield was reasonable and conformed with commonly accepted police practices”; and (3) “All policies were
designed to protect an individual’s constitutional
rights. All policies in effect were properly formulated
and sufficient to guide police practices.” Mem. in Supp.
of Mot. to Strike Three Facts, p. 3 (Docket No. 35, Att.
1).
Similarly, in the second Motion to Strike, Plaintiff
moves to strike information known to police, but not to
Plaintiff (Mr. Salinas’s criminal history, ongoing investigations, prior interactions with the police, and information reported by third parties to the police) “because
it has a tendency to confuse the issues presented on a

App. 71
motion for summary judgment” and because “all issues
involved in the current cross motions for summary
judgment are to be decided based on what a reasonable
person, standing in the shoes of Ms. West, would have
believed or understood under a totality of the circumstances.” Mem. in Supp. of Mot. to Strike Info. Not
Shared with West, p. 2 (Docket No. 36, Att. 1).
As indicated during oral argument on the pending
motions, Plaintiff ’s arguments in these respects are
folded into the Court’s consideration of the Cross Motions for Summary Judgment and do not deserve piecemeal consideration/resolution here; rather, they are to
be weighed alongside the parties’ arguments on summary judgment. In doing so, and resolving here that
issues of fact exist on the questions of (1) the voluntariness of Plaintiff ’s consent, and (2) the reasonableness
of the Residence’s search, both Motions to Strike are
denied as moot.
III.

ORDER

Based on the foregoing, IT IS HEREBY ORDERED that:
1. Plaintiff ’s Motion for Summary Judgment
(Docket No. 29) is DENIED.
2. Defendants’ Cross Motion for Summary Judgment (Docket No. 33) is GRANTED, in part, and DENIED, in part, as follows:
a. Plaintiff ’s claims against the Caldwell Police Department and the individual defendants in their

App. 72
official capacity are dismissed. In this respect, Defendants’ Cross Motion for Summary Judgment is
GRANTED.
b. Plaintiff did not fail to allege a proper constitutional violation as a matter of law. In this respect,
Defendants’ Cross Motion for Summary Judgment is
DENIED.
c. As to Detective Richardson, qualified immunity does not apply. In this respect, Defendants’
Cross Motion for Summary Judgment is DENIED.
d. As to SWAT Team Commander Seevers
and SWAT Team Leader Winfield, qualified immunity
applies to the extent their conduct is premised upon
Plaintiff ’s allegedly coerced consent. In this respect,
Defendants’ Cross Motion for Summary Judgment is
GRANTED. However, qualified immunity does apply to
these individual Defendants to the extent their conduct is premised upon the development of the tactical
plan itself and the tactical plan’s execution. In this respect, Defendants’ Cross Motion for Summary Judgment is DENIED.
e. As to Chief Allgood, qualified immunity
applies. In this respect, Defendants’ Cross Motion for
Summary Judgment is GRANTED.
f. Plaintiff ’s Monell claims against the City
of Caldwell are dismissed. In this respect, Defendants’
Cross Motion for Summary Judgment is GRANTED.
3. Plaintiff ’s Motion in Limine to Prohibit Both
the Display of Fabian Salinas’s Photograph and Any

App. 73
Mention of His Criminal History at Trial (Docket No.
24), is DENIED, without prejudice.
4. Plaintiff ’s Motion to Strike Three Facts Relying on Sheriff Raney’s Expert Witness Disclosures in
Support of Defendants’ Brief (Docket No. 35) is DENIED as moot.
5. Plaintiff ’s Motion to Strike from Defendants’
Statement of Facts, Response Brief, and Cross Motion
for Summary Judgment References to Information Police Knew but Did Not Share with Shaniz West (docket
No. 36) is DENIED, as moot.
6. Pursuant to the previously entered Case
Management Order, mediation shall take place
within 30 days of this Memorandum Decision
and Order. The parties shall contact ADR Coordinator Keith Bryan at (208) 334-9067 for assistance, if needed.
DATED: March 28, 2018
[SEAL]

/s/ Ronald E. Bush
Ronald E. Bush
Chief U.S. Magistrate Judge

App. 74
UNITED STATES COURT OF APPEAL
FOR THE NINTH CIRCUIT
SHANIZ WEST,
Plaintiff-Appellee,
v.
CITY OF CALDWELL et al.,
Defendants,
and

No. 18-35300
D.C. No.
1:16-cv-00359-REB
District of Idaho,
Boise
ORDER
(Filed Sep. 4, 2019)

DOUG WINFIELD, Sergeant,
in his official and individual
capacity; et al.,
Defendants-Appellants.
Before: GRABER and BERZON, Circuit Judges, and
ROBRENO,* District Judge.
Judge Graber has voted to deny Appellee’s petition
for rehearing en banc, and Judge Robreno has so recommended. Judge Berzon has voted to grant the petition for rehearing en banc.

* The Honorable Eduardo C. Robreno, United States District
Judge for the Eastern District of Pennsylvania, sitting by designation.

App. 75
The full court has been advised of the petition for
rehearing en banc, and no judge of the court has requested a vote on it.
Appellee’s petition for rehearing en banc is DENIED.

